U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

November 18, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Higgs v. Wilson, No. 19-401
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 18,
2019. The government's response is now due, after one extension, on November 25, 2019. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including December 18, 2019, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government's response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-040 1
HIGGS, LAMONT DEJUAN
WARDEN WILSON

LOCHLAN F. SHELFER
GILB SON, DUNN & CRUTCHER LLP
1050 CONNECTICUT AVENUE, NW
WASHINGTON , DC 20036
202-955-8500
LSHELFER@GIBSONDUNN.COM

